Department of Health and Human Services

         OFFICE OF
   INSPECTOR GENERAL




 THE NATIONAL VACCINE INJURY
  COMPENSATION PROGRAM: A
       PROGRAM REVIEW




             DECEMBER   1992
                     OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Sefices (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of I-II-Hprograms and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPEC130NS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and remmmendations contained in these inspection
reports generate rapid, accurate, and up-todate information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the New York Regional Office under the direction of Regional
Inspector General Thomas F. Tully and Deputy Regional Inspector General Alan S. Meyer.
Project staff included:

New York                                            Headquarters

Renee C. Dunn (Project Leader)                      Maruta Zitans
Nanq T. Harrison (Lead Analyst)                     W. Mark Krushat
Demetra Arapakos                                    Brian T. Ritchie

To obtain a copy of this repo~ call the New York Regional Office at (212)-264-1998.
Department of Health and Human Services

         OFFICE OF
   INSPECTOR GENERAL




 THE NATiONAL VACC NE INJURY
  COMPENSATION PROGRAM: A
       PROGRAM REVIEW




               ,+b
                     +
                     SERWCJ$
                               6.




         DECEMBER    1992      02-914)1460

              EXECUTIVE                         SUMMARY

PURPOSE

The purpose of this inspection is to review the structure and operations of the
National Vaccine Injury Compensation Program (VICP).

BACKGROUND

The VICP is a Federal “no-fault” system which was intended to stabilize the vaccine
manufacturing industxy and to establish a streamlined process to compensate persons
who have suffered injuries due to certain vaccines. The VICP involves three
government entities: the Public Health Service (PHS) in the Department of Health
and Human Semites (HHS), the Department of Justice (DOJ), and the United States
Court of Claims (Claims Court). After a claim is submitted to the Claims Court,
physicians at PHS review each case based on the Vaccine Injury Table and send their
recommendations for or against compensation to the Claims Court, where a hearing
takes place. With DOJ attorneys representing the government and private attorneys
representing petitioners, a special master, appointed by the Claims Court, makes a
final ruling and determines the amount of the award.

In conducting the inspection, policies, written procedures and operational guidelines
for the program were reviewed to determine how the program is organized and how it
attempts to meet its legislative and regulatory goals. F1OWcharts of the processes
were constructed. Next, from the universe of 2,347 cases in the PHS database a
statistical analysis was done and 90 cases were selected for review. The team also
interviewed 23 key government officials and 31 petitioners and their attorneys.

FINDINGS

The tiogram k Cwendy     Struggling To HandleA Lurgg Unanticipated Influx of
Retrospective Castts

At the current production level of approximately 37 cases a month, it will take
approximately seven years to complete all of the retrospective cases. As of February
1992, 739 retrospective cases had been completed, leaving 3,356 cases to handle.
Some government officials feel that the current production rate will increase due to
changes in legislation, the increased experience of the program staff, and an
anticipated increase in case dismissals.

Cases are Delayed Due To a Frons-endBacklogResu.3ting
                                                    From SchedulingCorwrainfs
and Lack of Resoums

The large influx of retrospective cases has necessitated that the chief special master
control intake into the system, resulting in a backlog. No guidelines exist for the



                                            i
special master’s scheduling of cas,es. They are not necessarily assigned in order of
filing. Approximately 2,500 cases have not been scheduled and are backlogged.

Respondents identify specific resources which they consider insufficient to handle the
backlog. The chief special master recommends more staff attorneys at the Claims
Court and the chief medical officer suggests additional reviewers. The PHS staff also
cite a shortage of both pediatric neurologists and infectious disease specialists willing
to testi~.

l%e Case l%ocess is Eflcient Ercept for the Front-End Backlog

An analysis of the flow of cases in the PHS database shows that once a case is
assigned, it is handled efficiently. Delays exist only at the front end for retrospective
cases. The program is meeting deadlines for prospective cases, handling them in a
timely and efficient manner.

Our review of program policies and procedures, reinforced by the responses of
government officials, shows the program to be well-organized. Each step in the
process is clearly delineated and no unnecessary duplication is apparent, Coordination
and communication among the Federal agencies is strong. . Their roles and
responsibilities are clearly defined. Petitioners and their attorneys are generally
satisfied with their experience in the program.

A SignificantPortionof PHS Medical Review RecommendationsNot To Compensateare
Overturnedby the Special Mzrten

A review of all completed cases, as of August 1991, reveals that 58 percent of the
cases that the PHS medical staff recommended not be compensated were
compensated. Several government officials cite two major factors which account for
the reversal rate: lack of corroboration of evidence and various interpretations of the
Vaccine Injury Table.

The Iksent   VaccineInjwy TableDotx Not Rej7ectl%e Lutest ScientificEvidence

A recent Institute of Medicine (IOM) study found a lack of causal relationship
between certain vaccines and injuries on the existing Vaccine Injury Table. Some
government officials estimate that if future cases are decided only on the basis of the
latest scientific evidence, the compensation rate would be significantly lower.

Government Oficiak     We Inteniewed Support Annuitk      and The Use of Brokem

Most government officials believe annuities are the best way to pay the award and
brokers are needed to buy the annuities. Annuities assure long-term benefits, avoid
mismanagement of funds, and are less expensive for the government.




                                             ii
RECOMMENDATIONS

The PHS, DOJ and Claims Court should:

Inventory the Backlog to Set l+ioritia and Be~er EstimateFutureResourceNeeds

The Claims Court, in consultation with PHS and DOJ, should evaluate the existing
workload to determine which cases it should handle first, what mix of resources will be
needed to handle them, and how best to handle more complicated cases.

FurtherStreamhkethe Process

Some suggestions include: assuring more complete filing of petitions, appointing one
objective expert witness per case, processing damage determinations more quickly, and
using past damage decisions as a basis for future ones.

Use Latest Sa”entijic Information

The HHS should support proposed legislation to revise the Vaccine Injury Table to
reflect the latest scientific information available, particularly changes recommended by
the IOM.

Improve Contact withPetitioned and theuAttorneys

Emphasize Use of Annuities

COMMENTS


Comments on the draft report received from PHS, the Assistant Secretary for

Planning and Evaluation and the Assistant Secretary for Management and Budget

generally concur with the recommendations of this report. However, PHS pointed out

that its role in the process is a limited one. We agree. We have directed our

recommendations to the Department of Justice and the Claims Court as well as PHS.

Suggestions for changes in the wording, clarifications of the text and any technical

changes have for the most part been incorporated into the final report. The actual

comments received are in Appendix D.





                                           .. .
                                           111

                     TABLE                     OF CONTENTS


EXECUTIVE       SUMMARY


INTRODLK130N           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ... . . . . . . . . . . . . .   ..1



FINDINGS      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


   IYogramkSq@ngwithatiqe                         InjluxofCases            . . . . . . . . . . . . . . . . . . . . . . . 8


   Backlogkin theFront-endofthe l%x.w.. . . . . . . . . . . . . . . .                          . . . . . . . . . . ...9


   ~w&gofAssi.gned               Cas~kEfictint             . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10


   Medical Recommendation,sove~ed                        bySpecialMasten . . . . . . . . . . . . . . . . . 15


   VacczkeTableDoGNotR#ect                     Lat@Sa”er@c             Evi&nce . . . . . . . . . . . . . . . . . 16


   Opkions aboutAnnuities andBrotim . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...17



RECOMMENDATIONS                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...18




APPENDICES




                                                         iv
                         INTRODUCTION


PURPOSE

The purpose of this inspection is to review the structure and operations   of the
National Vaccine Injury Compensation Program (VICP).

BACKGROUND

Immunkah”onGoak and VaccineInjuries

State laws generally require that children be immunized against seven infectious

childhood diseases (diphtheria, tetanus, pertussis [whooping cough], measles, mumps,

rubella and polio) before entering day care or SC1-iOOl.If a large enough proportion of

the population is immunized, the disease will not spread significantly and the entire

population will benefit. Thus, it is important that vaccines in this country remain in

adequate supply and be fairly priced.


Since the advent of these vaccines the occurrence of the diseases they prevent has

decreased substantially in the general population. People are often no longer aware

of the dangers of the diseases. Before the vaccines, epidemics of the diseases they

prevent caused widespread death and disability.


Immunization is not entirely without risk, however. While severe adverse reactions

rarely occur, they are a tragedy for the individual children and families who suffer

them. Parents of these injured and deceased children originally sought damages from

vaccine manufacturers through tort litigation. Tort law requires that the plaintiff

prove negligence on the part of the manufacturer or person who administered the

vaccine. This process often took years and consumed inordinate amounts of money.


The rapid growth of lawsuits and the increased manufacturer liability adversely

affected the vaccine supply. Vaccine prices rose and some manufacturers left the

business. By the mid-1980s there was only one manufacturer for polio vaccine, one for

measles, mumps and rubella (MMR) vaccine, and two for diphtheria, tetanus and

pertussis (DTP) vaccine.


LegMtion

In response to this mounting public health concern, several bills were introduced and
debated in congressional hearings on the issues of fair compensation and adequate
vaccine supply. Ultimately, the National Childhood Vaccine Injury Act of 1986 (the
Act) became law. This legislation attempted to ensure both fairness to injured
persons and protection for the Federal immunization program. It was designed to
serve two vital public purposes: (1) to provide prompt and fair compensation to the
few children who died or were injured as a result of routine immunization; and (2) to


                                            1
reduce the adverse impact of the tort system on vaccine supply, cost and innovation.

To fulfill the part of the Act that deals with fair compensation, the VICP (Subtitle 2 of
Title XXI of Public Health Service Act) became effective on October 1, 1988. Subtitle
2 was later amended by the Omnibus Reconciliation Act (OBRA) of 1987, by the 1988
and 1989 amendments, by the Vaccine and Immunization Amendments of 1990, and
most recently by the Health Information, Health Promotion, and Vaccine Injury
Compensation Amendments of 1991, signed into lasv on November 26, 1991.

Subtitle 1 of Title XXI of the PHS Act also establishes the National Vaccine Program
(NVP) to achieve prevention of infectious diseases through immunization and
prevention of adverse reaction to vaccines. The National Vaccine Advisory
Committee (NVAC) (Section 2105 of the PHS Act) advises and makes
recommendations to the director of the NVP.

Another legislated activity, the Advisory Commission on Childhood Vaccines (Section
2119 of the PHS Act) advises the Secretary on how the VICP is being implemented
and how it is accomplishing its goals. It has prepared a policy paper which discusses
options to be considered for the future direction of the program.

The Assistant Secretary for Health has also established a PHS-wide task force to make
recommendations on the future direction of the VICP, including proposing legislation
to deal with the influx of claims, as well as the long-range future of the program.

Program Description

The VICP is a Federal “no-fault” system which compensates families whose children
have had serious adverse reactions to vaccines for the following childhood diseases:
diphtheria, tetanus, whooping cough, poliomyelitis, measles, mumps and rubella.

The program, which began to consider petitions as of February 1, 1989, differentiates
between claims based on immunization prior to the Act’s effective date of October 1,
1988 (retrospective cases), and those based on immunizations on or after that date
(prospective cases). A deadline of January 31, 1991 was set for filing claims in
retrospective cases.

Retrospective and prospective cases are subject to different rules and remedies as
described in Table I below. Compensation for retrospective cases comes from an
annual appropriation of $80 million. Compensation for prospective cases is given to a
maximum of 150 claimants per year, and is financed through an excise tax on
childhood vaccines. In both types of cases, awards for death cases are fLxed at
$250,000 plus attorney fees and costs.




                                            2

 TABLE 1: COMPARISON                          OF RETROSPE~                                   AND PROSPECI’IVE      CASES


                                                                     RETROSPECHVE                     PROSPECHVE

           DATE OF VACCINE                                                 Prior to 10/1/88          On or after 10/1/S8
                SCHEDULING                                                 Non-sequentially             Sequentially
              DEADLINE              FOR                                         32 months                14 months
          DECISION             ON CASE
     # OF CLAIMS FILED BY 2/18/92                                                    4,095                   220
      # OF	 DECISIONS               BY 2/18/92                                         789                   50
              COMPENSATED                                                   303 (38.4%)*                21 (40%)””
         NOT COMPENSATED                                                        90 (11.4%)”              7 (14%)*”
                   DISMISSED                                                396 (50.2%)”                22 (4470)’”
           AWARDS BY 2/18/92                                                 $192 million               $10.5 million
                                                                             Annual                    Vaccine Injury
           FUNDING             SOURCE                                  Congressional                Compensation Trust
                                                                        appropriation of             Funded by vaccine
                                                                          $80,000,000                    excise tax
                                       ALLOWED                  AWARD AMOUNTS:
                      1NJUR%                                                     Unlimited               Unlimited
                      DEATH                                              $250,000 phJS              Up to $250,000 after
                                                                    attorney fees & costs           pain and suffering +
                                                                                                    attorney fees & costs
      ATI’ORNEY’S         FEES & COSTS                                          $30,000***               Unlimited
                                                                       Estimated future                Actual past and
                                                                         unreimbursable                estimated future
           BASIS OF AWARDS                                              rehabilitative and             unreimbursable
                                                                         related medical              rehabilitative and
                                                                      expenses; actual and             related medical
                                                                          future loss of            expenses; actual and
                                                                      earnings; attorney’s               future loss of
                                                                           fees & costs.            earnings; actual and
                                                                                                     projected pain and
                                                                                                    suffering; attorney’s
                                                                                                         fees & costs.
         iJfarr@rit.3ma   -4   nnrnnla*,a      A   .-+.    -.. --,.4...-         ,.. .-..
         1 *LQ~llL=~G     U1   UU1ll~lb     LGU    1 GLI   U3~GULlVG             ~cl>C3.
**
        Percentage of completed prospective cases.
***
        This amount also includes petitioner’s actual and projected pain and suffering
        and loss of earnings.


                                                                           3

The VICP consists of three government entities: the Public Health Service (PHS) in
the Department of Health and Human Setices (HHS), the Department of Justice
(DOJ), and the United States Court of Claims (Claims Court) which work together to
process the cases.

Families of injured or deceased children submit petitions for compensation to the
Claims Court which sends a copy to the PHS. The petitioner must prove program
entitlement as well as losses and expenses. After a petition is filed, the chief special
master in the Claims Court assigns the case to a special master and puts it on the
schedule of upcoming cases.

The PHS medical experts, in the Division of Vaccine Injury Compensation (DVIC),
evaluate the case and offer an opinion as to whether or not the petitioner is eligible.
The PHS Office of General Counsel (OGC) reviews this opinion and forwards it to
DOJ. Within 90 days of the original filing, DOJ writes a report incorporating the PHS
medical evaluation with a legal response; extensions may, however, be requested and
due to the backlog of retrospective cases almost always occur for these. Attorneys
from the DOJ and petitioner attorneys then argue the case before a special master in
a formal hearing. Prior to the hearing, a great deal of factual and expert preparation
is undertaken by the DOJ attorneys and petitioner’s attorneys in order to present the
case.

Both the PHS medical experts and the special masters are required by statute to use
the Vaccine Injury Table when deciding whether an injury is compensable. This table
outlines the injuries compensable under the program and the time-frames in which
they must have occurred. This table is intended to avoid controversy over which
disabilities are potentially caused by vaccines. It is accompanied by “Qualifications and
Aids to Interpretation” to allow for easier interpretation.

The final decision on a case is made by a special master of the Claims Court. This
decision will become a final judgement if no motion for review is filed within 30 days
or if the Claims Court affirms the decision of the special master. A case may be
compensated or not compensated or it may be dismissed. When a case is dismissed it
is no longer under consideration for a potential award. Their judgement is final,
unless either the claimant or HHS requests a review by a Claims Court judge. Further
review is available in the United States Court of Appeals.

The Act gives special masters a great deal of leeway as decision-makers. They are not
bound by common law or statutory rules of evidence, but are guided by them. They
can tailor each hearing to the individual circumstances as they choose, but are
constrained by the principle that their decisions may be reversed.

Once a decision is made to compensate, the award amount is negotiated. A life-care
planner assesses the present and future needs of the disabled pe~son and their costs,
and recommends an award amount. The special master determines the actual
amount. The entire process for retrospective cases, from time of initial petition to


                                             4
final decision, originally was to occur in 14-months, was increased to 20-months in
1990 and, since the 1991 amendments to 32 months. The entire process for
prospective cases must occur in 14 months.

It should be noted that compensation for retrospective cases begins at date of
judgement and the petitioner is not paid for any expenses incurred before then.
However, compensation for prospective cases is for past and estimated future
expenses.

Amendments to the Act signed November 1991, delete a provision which terminates
the entire program if funding is insufficient. These amendments also change the due
date for an evaluation report on the program to January 1, 1993; extend the
adjudication time for retrospective cases an additional 12 months for a total of 32
months; allow for compensation to be paid in one installment instead of four; and
give the petitioner the option to stay in the program if the deadline is not met. Before
the latter change, the Claims Court lost jurisdiction over the case and the petitioner
could then seek recourse only in the tort system.

The January 31, 1991 deadline for filing retrospective cases resulted in more than
3,500 cases being filed in the five preceding months. AS of February 1992, 4,095 pre-
1988 and 220 post-1988 petitions were filed. Of these, 739 retrospective cases have
been adjudicated: 281 in favor of the petitioner, 84 against and 374 dismissed.
Individual awards total $192 million. Of the 220 prospective cases filed, 50 have been
adjudicated: 21 in favor of the petitioner, 7 against, and 22 dismissed. Individual
awards total $10.5 million, well within the amount in the trust fund.

Repom

A Boston University recently completed a report for the Administrative Conference of
the United States, which summarized the first year of the VICP program and included
recommendations for its improvement. Also, the Committee on Governmental
Processes of the Administrative Conference as a result of the Boston University study
has made a series of recommendations for improvements in the VICP. Some call for
more effective dissemination of information, simplification of the eligibility process,
new guidelines for determining award amounts, and extensions in time frames for
completing cases.

In 1991, the Assistant Secretary for Planning and Evaluation (ASPE) contracted with
an actuarial firm to generate estimates on the costs of retrospective awards, The
estimates reflect different assumptions with respect to the number of cases
compensated, but uniform assumptions on award amounts by claim type and vaccine
category. The estimates range from a high of $2.6 billion to a low of $1.6 billion.

The Secretary, as mandated by law, requested the Institute of Medicine (IOM) to
form a committee to conduct a review to determine whether pertussis and rubella
vaccines cause adverse effects and what those effects are. Its report, completed in


                                            5

August 1991, found a lack of causal relationship between these vaccines and certain

injuries on the vaccine table.


Finally, the Office of Inspector General (C)IG) Office of Audit Semites (OAS)

conducted two related studies. The first looked at the timeliness of attorney fee

payments in the VICP. It found the average time for PHS to process attorney

payments was 22.6 days. The second reviewed an alleged conflict-of-interest involving

the above mentioned IOM committee. The OAS jnitially verified the conflict-of-

interest of two committee members. One person resigned. After further review in the

second case, it was determined that no con-flict actual~ existed, although there was an

appearance of possible conflict-of-interest.


Concerns about several program operation issues which have direct impact on the

program’s cost, prompted ASPE to request the OIG to review the program’s

operations. Additionally, OGC requested the OIG to examine PHS’S use of brokers.


METHODOLOGY


We reviewed policies, written procedures and operational guidelines for the program

to determine how the program is organized and how it attempts to meet its legislative

and regulatory goals. A flow chart was constructed to show the agency roles and

processes involved in handling cases. Another flow chart was created to show the

process of damage deterrnination.


The universe of 2,347 cases in PHS’S database as of August 1991 (1,800 petitions filed

had not yet been entered into the database) was stratified by whether the case was

open or closed. A random sample of 4S cases was then selected from each strata.

The inspection team reviewed these 90 case files to: veri~ data contained in the PHS’S

database; get a clearer understanding of how the VICP process works, including the

operational process used for decision-making in each case; and identify specific

attorneys and petitioners to be interviewed during the study. The 90 cases are

described in greater detail in Appendix B.


A survival analysis of all 2,347 cases included in PHS’S database through August 1991

was done to evaluate timeliness of decisions and trends in awards. See Appendi.. C.

With respect to this analysis, it should be kept in mind that this data set did not

include all the cases received by PHS. Eighteen hundred cases filed had not yet been

entered into the computer. Therefore, the results of this analysis should be

interpreted with caution. Once a complete data set is developed, the relationships

noted here may change appreciably.


The team interviewed 23 key government officials or those acting on behalf of the

government from HHS, DOJ, the Claims Court, and the National Vaccine Adviso~

commission. They include five administrators, four physicians, five agency attorneys,

two special masters, three other government officials, two brokers and two life-care




                                           6

planners. They were asked their tiewsof andtheir     e~erience   with the program and

their recommendations for its improvement.


Additionally, the team interviewed by telephone 31 non-government individuals.

These included 17 petitioners’ attorneys, 12 parents (6 of whom represented

themselves, known as pro se) selected from the closed cases reviewed, a medical

expert, and a parents; advocate. They were asked their views of the program and

their recommendations for its improvement. Althdugh an effort was made to

interview all 33 attorneys and their clients identified from the closed cases, 16

attorneys could not be reached or did not want to be interviewed. Also, many

attorneys did not agree to having their clients interviewed for a variety of reasons. For

example, some attorneys had lost contact with their clients, some clients spoke no

English, and some clients did not want to speak with us. Many attorneys said their

clients would become unnecessarily distraught if they had to discuss the painful subject

of their disabled children.





                                            7

                                FINDINGS


THE PROGRAM        IS CURRENTLY STRUGGLING             TO HANDLE       A LARGE,
UNANTICIPATED        INFLUX OF RETROSPECTIVE            CASES

At the cument productionikvelit willtake approximately
                                                     sevenyearnto complete all of the
                                                 .
            cases.
retrospeca”ve

The program is currently struggling to deal with a large, unanticipated influx of
retrospective cases. An analysis of PHS’S FY 1991 and 1992 program output status
reports shows that the VICP adjudicates an average of 37 retrospective cases a month.
This includes compensated, not compensated and dismissed cases. As of February
1992, 739 retrospective cases had been completed, leaving an additional 3,356 cases to
handle. If the number of cases completed monthly does not change, it will take
approximately seven years to complete all the retrospective cases.

However, some government officials feel that the production rate will increase due to
changes in legislation, the increased experience of the program staff, and an
anticipated increase in dismissals. The chief special master believes the production
rate has already increased since he has accelerated the assignment of cases. More
experience will be needed to ascertain the effects. However, if this increase continues,
the time needed to complete the retrospective cases would be substantially reduced.

Allhoughthe statutorydeadlinewar extendedfor an additional12 months, theprogram
willonly be able to completeone-thirdof the retrospectivecases by the new deadline.

Because the greatest number of retrospective cases were filed in September 1990, we
used June 1993, 32 months, later as the deadline for completion of all these cases.
With an average adjudication rate of 37 cases a month, 1,368 retrospective cases of
the total 4,095 filed will be adjudicated by the deadline, leaving 2,727 cases to be
completed. Were the deadline to be extended another twelve months, an additional
444 cases would be completed within the deadline.

If program output were to double, half the retrospective cases would still not be
completed by the deadline; if it were to triple, 35 percent would not be completed.
Actually, completing 95 percent of the retrospective cases by the statutory deadline
would require a five-fold increase in the production rate.

These projections are approximations   based simply on experience. Completed cases
have been scheduled and adjudicated    in a variety of ways which may not necessarily be
typical of future case development.

Although most government respondents feel positive about having time requirements
for handling cases, almost one-half consider these requirements unrealistic in light of
the large number of pending cases.


                                            8
Almost one-half (45 percent) of government officials could not even give an estimate
of how long it will take to complete the cases. Those who answered offered estimates
ranging from two to five years.

The delays are of concern to petitioners and their attorneys because of the lack of
retrospective payment.

Ilhetime requiredto process the remainingcases will&pend inpart on the case mix

The results of the survival analysis indicate that, for the cases found on the PI-IS data
set as of August 26, 1991, the median time to completion of a case is approximately 15
months, well within the statutory time frames. Further, the results indicate that some
aspects of the cases, including whether the patient died, the type of vaccine involved.
when the case was filed, and whether the case was handled pro se or not, significantly
affect the length of time it takes to handle a case.

It should be kept in mind that this data set did not include all of the cases filed. A
number of cases had yet to be entered into the computer. It is possible that the
addition of these cases may increase the median time to completion if it were found
that cases were entered into the data set in a differential manner. This may indeed be
the case given the large influx of cases that occurred during September 1990.

CASES ARE DELAYED DUE TO A FRONT-END BACKLOG RESULTING
FROM SCHEDULING CONSTRAINTS AND LACK OF RESOURCES

me large i.nj?ux of 3,500 retrospectivecases hus rwcdated   that the chi~ specialmaster
controlintakeinto the system

This large influx of cases, filed in or around September 1990 and January 1991, has
compelled the chief special master to decide the order in which they are handled. No
guidelines exist for this ordering and cases are not necessarily assigned in order of
filing. The chief special master must consider available resources throughout the
program when scheduling cases.

h order to handle the large number of cases, the chief special master has: held
several informal meetings with representatives from DOJ and PHS and petitioner’s
counsel to develop a schedule; grouped cases according to type of vaccine; grouped
cases geographically so that attorneys with many cases can have them heard at the
same time in the same place; and dismissed many cases for lack of information.

The approximately 2,500 cases which have not been scheduled make up the front-end
backlog. In March 1992, the chief special master estimated that the Claims Court had
begun assigning 40 to 60 cases a month and dismissing an additional 40 a month after
preliminary review of the petitions. As this preliminary review is a new development
in the process, its effect is not yet reflected in any available data.



                                           9

It is not yet clear what will happen if this front-end bottleneck is opened. We can
anticipate the system would get backed up in other places, but cannot predict exactly
where or how much.

Specijic resoumes considered insu.cient to handk the backlog are staff attorneys,
pediizm”ciarq pediatrii neurologk, and rnfectzks direase specidk

According to the chief special master, more staff attorneys at the Claims Court would
be a key addition. Staff attorneys conduct prelimina~ reviews of cases to determine
whether or not they meet statutory requirements and to ensure that complete case
files are forwarded to the chief special master. This facilitates scheduling and leads to
appropriate dismissal of cases at an early stage.

According to the PHS chief medical officer, the medical review staff of six
pediatricians reviews approximately 60 cases a month, an average of two days per case
per doctor. The time needed for this initial review, further review required after
additional information is submitted, discussions with DOJ, and for other activities
leaves no buffer in the system. Additional reviewers would be necessary if the case
load increases. Difficulty recruiting competent pediatricians has currently left three
positions vacant. The PHS staff attribute these vacancies to the unwillingness of many
physicians to do such worlq because it removes them from patient care and requires
them to make review decisions in a controversial area.

The PHS staff cite a shortage of both pediatric neurologists and infectious disease
specialists willing to testi~. The PHS staff also believe the small number of available
expert witnesses is and will continue to be a limiting factor. Recently, five cases were
dismissed in one month because the petitioners could not find experts to testi~ in
support of their cases. Some petitioners also mention difficulty in finding attorneys
willing to represent them.

THE CASE PROCESS IS EFFICIENT            EXCEPT FOR THE FRONT-END
BACKLOG

Once a case is assI”gni@it k handkd @kiently.

An analysis of the flow of cases in the PHS database as of August 1991, from the date
the claim was filed to the date of judgement, shows that delays exist with retrospective
cases only at the front-end of the process. Once filed, entered into the PHS database
and scheduled for review, the median time for both retrospective and prospective
cases to reach a special master decision is 15 months. However, our analysis indicates
that most of the processing time appears to be absorbed in the early stages, from the
time a case is fded to the PHS OGC report date. This analysis is explained further in
appendix C.

This 15-month completion period is well ahead of the current 32-month statutory
deadline for retrospective cases. Of the 594 retrospective cases adjudicated by August


                                            10

1991, fifty-four percent were completed tithin     10months;   91 percent within 15
months; and 96 percent within 20 months.

The program is meeting deadlines for prospective cases and handling them in a timely
and efficient manner. Of the 126 prospective cases filed before August 1991, none
have missed the 14-month statutory requirement.

While agreeing that cases are handled     in a timely manner, government officials,
petitioners and their attorneys mention    factors which delay a case once it is in the
system. Most frequently mentioned is      the long time it takes for a case to be assigned
and to get into the system, because of    the large influx of retrospective cases.

Government officials often cite incomplete records      submitted with the initial petitions
as a cause of delay. Petitioners and their attorneys     agree that delays in getting
evidence and medical records occasionally slow the      process. Ninety percent of
petitioners and attorneys say they were required to     submit additional material or
evidence after the case was filed. Sixty-tSVO percent     of petitioners and attorneys report
that getting medical records was the most common        problem they encountered in
preparing their petition.

The review of 90 cases shows that additional information, mostly medical records, was
requested in fifty-six percent of the closed cases.

A PHS official reports cases are sometimes stalled at the point where damages are
determined. Another government official reflects the views of many when he says,
“once entitlement is determined, damage determination should not go through this
lengthy process. Too much time is taken here.”

l%e program appeam to be generally weI.1-organkedwith good procedures.

Our review of program policies and procedures shows the program structure to be
well-organized, with each step in the process clearly delineated. This is demonstrated
in flow chart I.

Three-quarters of government officials and half the petitioners and their attorneys
consider the program to be well-organized with a sound and logical structure.
Government officials most frequently mention that the program has developed
effective procedures and guidelines, that roles have evolved more clearly over time,
and that staff have gained more experience. Petitioners’ attorneys note that the
program is less costly and faster than State and Federal courts; some also feel that it
has improved over time with better procedures. Thirty-five percent of petitioners and
their attorneys say that the program is not well-organized, most frequently mentioning
that the Claims Court is overrun.

Almost three-quarters (74 percent) of government officials feel the program is
operating efficiently. They most frequently cite the program’s effective processes.


                                              11
Some also mention that under the circumstances, with limited staff and a large
caseload, the system is working as well as it can.

Half the petitioners and their attorneys agree the program is operating efficiently.
Several say that it works better than the Federal and State court systems; others
remark that, in their experience, the process has been relatively smooth. Those who
do not think the program is operating efficiently (32 percent) voice concerns about its
lack of consistency, timeliness and overly bureaucratic process. The remaining
respondents did not render an opinion.

No unnecessaq duplication of ej$oti exists.

A review of program policies and procedures reveals very little duplication of effort.

It is, however, required at certain points in the process. For example, PHS, DOJ, and

the Claims Court each review a case. This is necessary since each party must come to

an independent conclusion in order to negotiate and resolve the case.


Most government officials who believe duplication of effort exists agree it is necessary

to fairly adjudicate a case. Some government officials, however, identi~ areas where

duplication of effort is perhaps not necessary, such as double data entry and the flow

of papenvork between the PHS and DOJ.


Roks and responsibilti    are clearly defined

Flow chart I shows that the functions and responsibilities of each government      entity
are, for the most part, clearly outlined.

All government officials, except the special masters, feel their office role is clearly
defined. Most say the Act is vex-yspecific and that clear written procedures are
available.

The special masters interviewed do not feel their office role is clearly defined. One
asks, “Should [1] be inquisitor or traditional judge?” Special masters can question
witnesses, call their own expert and generally be more involved throughout the whole
process than a judge usually is.

All government officials, including the special masters, think that their individual roles
in the program are clearly defined. All feel they have clear job descriptions and
performance plans and know what is expected of them. Although the special masters
say the role of their office may not be well-defined, they believe their personal
responsibilities in the program have evolved more clearly because of their increased
case experience.




                                                12

                                                                                                              FLOW CHART                                 I


                                                                                                                         claimto court
                                                                                                                                                                                  \
            .. . . . . . . .

            : DWC Recaves Clatm ~
            . . . . . . . . . . . . . . . . . . . . . . . ..

                                                                                                         ~
                                                                                                                                                                                          I    Oauns CcW     Fdes   Cam
                                                                                                                                                                                                                             I
                                                                                                                                                                                                                                  DAY 1


                                                                                                                                                                                                     Staff attorney
                                                                                                                                                                                                     rewews case
                                                                                                                                                                                                   gves to chef S&l
                                                                                                                                                                                                  m
                                                                                                                                                             .                                               X
             ...... ..... ..... ... ..
                   DVIC physlaan                   ~                                                                     DOJ assqw                               Chef SM assgns case
                    cticts          Wial                                                                                 case to an                                  to SM gives
                                                   :<
                   review of case                  .                                                                       attorney                  +           Sch&d-dO to DVC. C@J<
            . . . . . . . . . . . . . . . . . . . ..
                         [

                       . .

                     .      .

                  .- M~e -..
                         .....................

DAY   30.; ::~: :; -.,.%                                          ‘~ ;ee$e:~                         :
          .. case ..’                                      .. . . . . .nfcrnatlon
                                                                        . . . . . . . . . . . . . . ..
                              7   .’                                                                 m
                       .“,        ”
                         ,,                                                   ,’
                                  No
                                                                          *“I
                                                                            S’...
                                                                     ,.   DVIC           ,,                                DOJ files
                                                         y-.     ‘iatlsfa W/info’ .5                                       motion to
                              4                                         received      ,‘                                    dismiss
                                                                             ‘?    ,.                                                            \
                                                                                ,.
         . . . . . . . . .Y. . . . . . . . . . . .                         .,
                                                                                                                                                                                                   /
       :      DVIC physaan                       j
       : conducts complete                       :
       ~review. fmms oprnon ;
       . . . . . . . . . . . . . . . . . . . ..
                          ,i
                              1
                        .,,
                  .“DVIC’.
               ,‘recorrmemis.              , ~e~
                                                                                                                           \
            .’jo compensate,
                                                                             4
                    -. ., 7.’
                   ‘(’W
          .......................
               Case sent to c +.:+L%$:”                                                                      ‘..........          . . ...”....
              outsde expert    :
          ......................
                                                                                                                                                                                                                    l==               B


                                                                                                                                                                                                                    I
                                                     ~              ‘;:’                                     ‘~                                                                                                           drsmtssed
                                                          . . . . . . . . . . . . . . . . . ...\
                                                                  13GCrevtews nwdcal:                             D&l drafts and files           D

                                                                                                                  rescordent’s rewt                                      W    fwk!s status E

                                                                                                                  with     Caut                                              ccmfefeme

                                                                  sends to CCJ                       :
                                                          . . . . . . . . . . . . . . . . . . . . . ..




                                                                                                                                                                      @El
                                                                                                                           DAY 90



      .. .... .




                                                                                                                                                                         Q-r
      .........; DVIC (PHS and OGC)                                                                                                                                              SM
                                                                                                                                                                             deadesto             Yes

      c1
                                                                                                                                                                             Ccmpae

                         DOJ                                                                                                                                                                               Dam*     are
                                                                                                                                                                                                           determmed
                                                                                                                                                                                          No
      ~	                 CIAIMS COURT                                                                                                                                                 I                -

                         (SM = SPECIAL MASTER)                                                                                                                                                               v

           * Letters A - F above are explained
             in Appendix A                                                                                                              13
                                                                                                                                           DAY 270
                                                                                                                                                                  &’
                                       FLOW CHART                     II




                                 DAMAGE DETERMINATION


                                       In injury case,
                                  petiticmr ~esents
                                   Ilfe-care plan of the
                                 treatment, care and
                                    costs of injwed
                                     party’s Ilfetime

                                           /
            Spec!ai Mastef       00J, with cjovernmen
             sets award,          life-care pkmner and
            as determmed by          broker, evaluates
          statute, at $250,00C   and responds to plan



                                                                Spec!al Master Po!ds     Special Master    ‘
                                                           NO   evident[ary hearing    conslcWs ev!dence
                                                                 with petitioner’s      ~esented and
                                                                 and goverrrnent’s      makes dec tslon on i
                                                                  life-care planner      award amount      I




Coordination and cornrnunicah”onamong the Federalagerm”e$k strong.

Flow chart I demonstrates clear-cut avenues for coordination. For example, should a

PHS doctor require additional records to complete the medical review, the request will

be made to the petitioner through DOJ to help assure compliance.


Almost three-quarters (74 percent) of government officials rate communication among

all parties as good (22 percent) or excellent (52 percent). The PHS staff feel

particularly positive about communication within their own division. Many

government officials say that, while there is room for improvement, they respect each

other’s efforts and work at keeping communication open. One states, “there are real

attempts by the heads of different parts to keep communication open.” Several

consider the new total quality management (TQM) group, which includes members

from PHS, DOJ, and OGC, an excellent mechanism for communication and

cooperation.



                                                       14

Status conferences between the special master and both sides involved in the case also
facilitate open communication. Once a case is assigned, these conferences are held to
speed up and simplify the decision-making process. The special master conducts these
informal conferences with the petitioners’ attorneys, possibly the petitioners, and the
DOJ attorneys, either by teIephone or in person, to focus issues and to give each party
the opportunity to address the other’s position.

A majority of government officials rate coordination between government agencies
good or excellent. They know where responsibilities lie and who to call on specific
issues.

Petitkmm and theirattorneysare generallysa&@d withtheirexperienceh theprogram.

The experience of petitioners and attorneys has been positive. Seventy-six percent say
that government officials have been generally helpful. They mention that the
representatives were cooperative, readily available and promoted a good working
relationship. A majority (79 percent) also say they were kept informed about their
case while it was being decided. On the other hand, some petitioners and their
attorneys report that before a case is assigned to a DOJ attorney, they are unable to
find out its status. They would like a contact person for that purpose. Other
petitioners believe that the program should be better publicized.

A SIGNIFICANT PORTION OF PHS MEDICAL REVIEW

RECOMMENDATIONS     NOT TO COMPENSATFj ARE OVERTURNE                        D BY THE

SPECIAL MASTERS


A review of all completed cases as of August 1991 reveals that 58 percent of cases
that the PHS medical staff recommended not be compensated were compensated.
During the seven-month period from June 1989 to January 1990 (when DOJ was not
representing the government), eighty percent of the medical rew-ew recommendations
not to compensate were compensated.     In contrast, when DOJ has argued the case, 52
percent of recommendations not to compensate have been compensated.

One special master believes the reversal rate is currently lower than 52 percent. He
feels that, with experience, the special masters have become more comfortable in their
role and in making decisions, leading to fewer compensated cases. Additionally, he
believes that cases which had more substantive evidence submitted with the original
petition were put into the system first, and were more likely to have been
compensated.

Several government officials cite two major factors which account for the reversal rate:
lack of corroborating evidence and differing interpretations of the Vaccine Injury
Table. Disputes occur over what constitutes appropriate evidence. Additionally, the
character of expert witnesses and the potential conflict between testimony and records
or legal evidence also lead to disagreement. A related reason is the interpretation of
the Vaccine Injury Table. Although the Aids to Interpretation assist with the


                                           15

interpretation of the table, there is still room for differences of opinion. Therefore,
each special master may interpret the table differently. The DOJ and HHS both
support stronger corroboration of evidence requirements.

Of those who have an opinion, government officials are almost evenly divided about
whether they believe cases have generally been decided appropriately.  Many
government officials who feel cases have been decided appropriately mention that,
with DOJ’S involvement, decisions are more balanced and fairer. Some also believe
that decisions have been appropriate within the framework of the present Vaccine
Injury Table and the evidence presented.

Most government officials who feel cases have not generally been decided
appropriately do not believe all compensated decisions have been scientifically based.
Many also think that too much emphasis has been given to petitioners’ testimony, as
opposed to medical records. One government respondent notes that PHS medical
decisions and special master decisions are based on two different sets of factors: the
former relies primarily on medical records, while the latter additionally considers
testimony and affidavits.

Of those petitioners and their attorneys with an opinion, a majority (78 percent) feel
that, based on their own experience, cases have generally been decided appropriately.
More than half feel satisfied with the final decision in their own case. However, none
of the petitioners who represented themselves (pro se) are satisfied: all of their cases
have been dismissed for lack of evidence.

Only a small percentage of cases are appealed which could be interpreted to mean
petitioners and their attorneys are generally satisfied with their case outcomes. TO
appeal a case after the special master decision, either party files a motion for review
with the Claims Court judge. A of November 1991, 86 motions for review were filed,
60 by the petitioner and the remaining 26 by DOJ. After the judge’s decision either
party has 60 days to file a further appeal to the United States Court of Appeals for
the Federal Circuit. Since the program’s inception, very few cases have actually gone
to the next appeal step. Currently, there are approximately five DOJ appeals and 15
petitioner appeals at this level.

THE PRESENT VACCINE INJURY TABLE DOES NOT REFLECT                            THE
IATEST SCIENTIFI C EVIDENCE

A recent Ihstie of Medicine(IOiU)   studyfound a hck of causalrehtionrhipbetween
certainvaccinesand injurikson the erirtingVaccineInjmy Table.

The IOM committee sponsored a public meeting to solicit medical and scientific data
and comments on the nature, frequency, and circumstances of adverse events following
pertussis and rubella vaccines. It then reviewed existing research about 17 adverse
events for pertussis vaccine and three adverse events for rubella vaccine. The



                                             16

committee organized its conclusions into five categories reflecting the causal
relationships between the vaccines and the adverse events.

Based on the study findings the HHS and the Advisory Commission have made
recommendations for changes. The primary changes would remove seizure disorder
and shock-collapse from the presumption of causation for pertussis vaccines. On the
other hand, chronic arthritis would be added for rubella vaccine, but only on a
showing of vaccine involvement. Some government officials estimate that if future
cases are decided only on the basis of the latest scientific evidence, the compensation
rate would be significantly lower.

GOVERNMENT   OFFICIALS           WE INTERVIEWED         SUPPORT     ~             m
THE USE OF BROKERS

Of those government officials offering opinions, almost all believe that annuities are
the best way to pay the award. Eighty-three percent say annuities alone are best; the
remaining 17 percent think that the award should be paid in a combination of lump
sum and annuity. According to those who favor annuities, annuities assure long-term
benefits for the child, avoid mismanagement of funds, are less expensive for the
government because the insurance company assumes some of the risk, and give the
petitioner tax benefits.

Although all government officials agree certified brokers are necessary to buy the
annuities, some express concerns that their costs are too high. Many mention that
brokers perform a necessary function by shopping for the best deal, actually servicing
the annuity during the course of the petitioner’s life, and providing support to DOJ
during damage determinations.

The brokers have recently demonstrated their value. Originally, the program had to
pay compensation in death and injury cases in four equal installments. This restriction
limited the number of insurance companies willing to sell annuities to PHS. Those
companies charged higher than normal rates because they were not getting the full
cost of the annuity up front. The November 1991 Amendments to the Act, which
allow for compensation to be paid in one installment instead of four, have made it
possible for the brokers to renegotiate several annuities. Brokers were able to arrange
for the program to make the remaining payments on several annuities and to
renegotiate many annuity proposals. In total, the PHS has reportedly saved $7.7
million through these actions. The brokers’ fees had already been paid by the
insurance companies, so PHS did not incur any additional costs to achieve the savings.
If annuities are to be the preferred payment approach, brokers are essential since
insurance companies only deal with credentialed individuals.




                                             17

                            APPENDIX                   A


                               FLOW CHART          NOTES



17ME FRAMES

Generally, prospective and retrospective cases should be resolved in 420 days (14
months): 240 days from filing date to the special master’s decision plus the maximum
allowable suspension time of 180 days. However, the special master can suspend
proceedings in any case several times and at various stages in the process. Also, due
to the unexpected influx of retrospective cases, the retrospective cases have been given
the 420 days plus additional extensions of 18 months, for a total of 32 months from
filing date to the special master decision. Since the suspension times may differ from
case to case, the time frames incorporated into this flow chart do not include any
suspensions.

A:     SUBMI17YNG C-S           AND “FRONT-LOADING”

The VICP was designed to get all the case information at the time of filing (called
“front loading” the information) so all the issues and evidence are presented at the
start. The petitioner’s initial claim (the petition) must be complete in that it clearly
outlines the petitioner’s full case. This petition must include all medical and
potentially relevant records and affidavits. A complete petition is essential: it reduces
delays that occur when additional information has to be requested; permits a detailed
evaluation of the case by the respondent (DOJ) and the special master; and is
necessary for the timely adjudication of the case.

B:     DISMISSALS

The special master may dismiss a case at any time during the process. Dismissal can
occur if the petitioner received an award in the tort system, if no evidence was offered
for a doctor to form an opinion, or if the Claims Court does not have jurisdiction over
the case.

c:     OUXSLDE EXPERT

Whenever the PI-IS staff physician decides a case is not compensable, it is sent to an

outside medical expert who is not on the PHS staff. The expert may request

additional information, especially medical tests, just as the staff physician does in order

to form an opinion on the case. This opinion becomes the official PHS decision,

referred to as the “internal report.”





                                              1



                                                                              ————
D:    RESPONDENT’S REPORT

Prepared by DOJ attorneys, this document seines as PHS’S answer to the petition. It
incorporates the medical arguments made by the PHS physician or outside expert on
whether or not PHS considers a case compensable and any relevant legal issues.

E:      STATUS CONFERENCE

After reviewing the petition and respondent’s report, the special master conducts an
informal, “off-the-record,” Rule 5 conference either by telephone or in person. The
purpose of the conference is to speed and simplify the decision-making process.
During the conference each party is given the opportunity to address the other’s
position. The special master offers his or her tentative view as to the merits of the
case. Also, the petitioner, respondent, and special master establish which issues
remain to be addressed. These conferences occasionally lead to settlement.

The special master often holds additional status conferences, usually by telephone, to
expedite the processing of the case. Either party may request such a conference at
any time. At these conferences, the parties may either suggest ways to process the
case more efficiently, or make the special master aware of new case developments.

F:      SPECL4L MASTER ORDERS CLERK TO ENTER JUDGEMENT

Within 240 days of the claim’s filing date, the special master must issue a final decision
determining whether or not an award of compensation shall be made and, if so, its
amount. If neither party files a motion for review within 30 days of the special
master’s decision, the clerk enters judgement by day 270. Compensation, in awarded
retrospective cases, is paid from this date of judgement.

NOTE:

In all cases the processes and time frames presented both in the flow chart and in the
flow chart notes are those set forth in regulations and procedures; they may be
different due to requested extensions or other unknown factors.




                                           A -2

                             APPENDIX                B


DESCRIPTION       OF 90 CASES IN THE CASE FILE REVIEW

                                                    number   Percent
Case Status:

Closed (case went through hearing)                    25     28T0
Dismissed early in process (no hearing)               20     22%
Open, awaiting PHS review                             28     31%
Open, in or past PHS review                           17     1970

Other Charactefitics: (not mutually exclusive)

Pro se                                                18     20%
Outside expert used                                   15     1770
DPT                                                   66     7370

Injun”ex(not mutual~ exclusive)

Seizure disorder                                      53     5970
Encephalopathy                                        39     4370
Mental retardation/developmental     delay            16     18%
Death                                                 14     1670
Hypotonic/hyporesponsive    collapse                  11     1270
Anaphylactic shock                                     3      3%
Other                                                 25     28%

Date Vaccine Admimktered: (closest appmxiinahon to akte of hjv)

1972 and before                                        32     35.570
1973 to 1982                                           32     35.5%
1983 to present                                        26     29V0

Special Master Deciiiox

Compensate
                                            18     2070
Not Compensate
                                         8      9%
                                                       ~o     ‘2~70
Dismiss

Other
                                                  1      1%
Information Not Available
                              2      2%
Not Applicable (case still open)
                      41     46??0




                                             B-1

                             APPENDIX                   C


          DESCRIPTION       OF THE ANALYSIS        OF THE PHS DATABASE

To supplement the field work for this inspection, coded data were obtained that
described a portion of the claims filed with the U.S. Public Health Service (PHS)
Vaccine Injury Compensation Program (VICP). This data was analyzed to describe
the program and delineate the effects on completion times of different characteristics
ascribed to each case. This Appendix describes the results of that analysis.

Description   of Data Set

We received from the PHS a copy of their automated data that was current to August
26, 1991. A total of 2,478 cases were represented by the data in the file.

This analysis is structured on the presumed flow of cases filed with the VICP.
Although up to 13 milestone dates are possible on the files provided, we have
concerned ourselves with only four of these dates. These four dates include the date
the claim was filed (Date Claim Filed), the later of the date of the internal report or
the OGC (Office of General Counsel) report date (Intex-nal/OGC Report Date), the
DOJ (Department of Justice) report date (DOJ Report Date), and the Special Master
(SM) report date (Special Master Report Date). This last date also seined to define
when a case was closed. We then defined internals, measured in months, between
each of these dates. These intervals are shown in the schematic drawing presented in
Figure A. Cases were dropped that did not adhere to this sequence or were missing
other important data. Of the original 2,478 cases, 60 were dropped because either
the patients birth date was missing or the birth date followed a case’s filing date. A
further 71 cases were dropped because other dates in their file were out of sequence.
Thus a total of 131 cases, 5.3 percent, were dropped due to bad dates. Except for
unknown values in the individual variables that may lead to dropping a case from a
specific analysis, the resulting 2,347 cases were included in the analysis presented here.

This analysis will show median times, in months, for each of the intervals illustrated in
the figure. The most important is the internal Iabelled FS, the time from filing the
claim until the Special Master report date. The analysis will concentrate on this
interval. Results for the intexvals labelled FD, the time from filing until the DOJ
report date, and FIO, the time from filing until the internal or PHS report date, IOD.
the time form internal or OGC report date until DOJ report date, DS, the time from
DOJ report date until SM report date and 10S, the time from internal or PHS report
data until SM report date, will be presented briefly in Table III.




                                           c-1
                                               Figure 1



     Schematic                    Definition               of          Time              Intervals


           r


                Date      Claim          FIO               internal/OGC
                                                                                         \
                       Filed                               Report           Date



                                                                              I   00



                                                           DOJ       Report
                                                                       ~f)
                                                                                                      I   0s
                                                                     Date                         \
                                    FS

                                                                              Ds
                                                                        T
                                                           Special            Master
                                                                                             .1
                                                             Report               Date
                                                       I




For this analysis, one other variable, besides theintemals, was constructed to encode
information ~ot originally available on the file provided byPHS. During the period
June 1, 1989 to December 31, 1989 the Department of Justice withdrew from the
process. An indicator variable was created for cases completed during this period,
whether they were dismissed, compensated or not compensated. Sixty-one completed
cases fell into this group.

Eleven other indicator variables were created for this analysis, generally for use in the
models applied to the data. These were constructed from data available in the files
supplied by PHS. These additional variables define the type of vaccine given, the
dates of filing for the cases, whether the patient died and whether the case was filed
pro se or not.

For the cases represented in this data set, four outcomes can be defined as of Aug. 26,
1991. At this point in time the cases were either; (1) still open; (2) dismissed; (3)
closed and compensated; or (4) closed and not compensated. Cases were designated
as still open if no SM report date was recorded on the file. The other categories were
determined by the coding found in the SM recommendation variable. Table I presents
the status of the cases used in this analysis by these four categories. For the analysis
presented here, ~o classes of completed cases were defined. One class included all
completed cases, compensated, not compensated and dismissed. A second class


                                                 c-2
excluded the dismissed cases. This applied mostly to the analysis involving linear
models, to be discussed below.


                                         Table I


               SM Recommendation
                  N            % of Tot.

               Not Completed
                          1728         73.6
               Compensated
                            246           10.5
               Not Compensated
                          94           4.0
               Dismissed
                               279          11.9

               Total
                                  2347         100.0


Methods

The main thrust of this analysis was to describe the time its takes to complete a case.
We also wanted to know what factors associated with these cases might account for
changes or differences in these completion times. To do this, methods associated with
the analysis of sum-ival times were employed. Ordinarily, these methods are concerned
with the time elapsed to the failure of a study element from some selected starting
time. For this analysis, we defined a failure as the closing of a case. Thus, the
survival time is the interval from when the case is first filed until one of our endpoints
is reached. For the most part, this will be the special master report date.

To determine median times to completion, we obtained Kaplan-Meier (KM)
estimates.   This analysis provides estimates of the time it takes for 50 percent of the
cases to reach the end of the defined time interval using censored data. Censored
data occurs because, as of Aug. 26, 1991, cases were still open and at varying points in
the process. We do not know when these cases will close. This approach is necessary
because any estimate that relies solely on completed cases will give biased estimates.
The results are expressed as the median time to completion, in months, for all cases.
The KM estimates were obtained using PROC LIFETEST from the SAS statistics
package for personal computers.

To test the effects of concomitant variables on the time it takes to complete a case,
Cox regression techniques for life table data are used 3. These techniques take the
form of what is known as proportional hazards (PH) regression models. Using the
interval from when the claim was filed until the Special Master report date (The
interval labeled FS in Figure A.) as an example, once a claim is filed, it is at “risk” of
being settled (receiving a SM recommendation) at any time following the filing date.
This risk of settlement can be a function of certain characteristics of the cases in the
data set. For example, are pro se cases settled sooner or later than non pro se cases’?


                                           c-3
Is there a similar difference for cases where the patient died? And how does the
interaction of these two variables (pro se and death of the patient) effect the time to
settlement? The PH regression model allows USto put all of these variables into a
single equation and attempt to determine the independent affect of each of these
characteristics. For each of the characteristics, we will be estimating the relative
increase in risk of settlement for those with the characteristic as opposed to those
without the characteristic. If the value of the relative risk is greater than one, then the
presence of the variable increases the hazard rate; that is, decreases the length of time
to complete a case. If the value is less than one, then the variable is likeIy to decrease
the hazard rate, or increase the length of time to complete a case.

The SAS statistical program PROC PHREG for the personal computer was used to fit
these models4. With this proportional hazards model, the exponential of the
coefficients gives the relative risk described above. The model also assumes that the
risk is constant over the follow up period. To test for the significance of each variable
(and the ensuing relative risk), Wald chi-square statistics with the appropriate
degrees of freedom are calculated. Given p values of less than 0.05 would indicate that
the relative risk is significantly different from 1.0.

Results

The results presented in Table II indicate that 50 percent of the cases are completed
within 15 months of the filing date. This is true whether or not dismissed cases are
included. The data also indicate that most of this time appears to be absorbed in the
early stages of the process, from the time the case is filed until the Internal or PHS
report date.

OveraIl, the characteristics of the cases analyzed here do not seem to change the totaI
time it takes to complete a case except in two areas. Table IV provides the KM
estimates of the median time to completion for each of the characteristics separately,
using the interval from the date filed to the SM report date. Where no data is
indicated in the table, less than SO percent of the cases were completed as of Aug. 26,
1991. The first horn this generalization involves the pro se cases. When the dismissed
cases are included, half the cases handled pro se are completed within 13 months.
When the dismissed cases are excluded, this median time to completion increases to
18 months. These results would indicate that the pro se cases are handled differently.
It is possl%le that they are dismissed sooner and when not dismissed, take longer to
complete.

The second area of difference stems from the type of vaccine used. Those cases
involving the intravenous polio vaccine (IPV) vaccine look to take longer to complete.
The median time to completion is 20 months, with or without the dismissed cases.

Looking at Figure B, approximately 80 percent of the dismissed cases close within 10
months. This compares to about 39 percent of the closed cases. Ninety-nine percent
of the open cases are younger than 21 months. This data would indicate that for the


                                           c-4
cases found in the data set, the vast majority are being handled within the statutory

limits of 32 months.


The results of the proportional hazards regression analysis (Table IV.) show that cases

filed before 7/90 (variable B790) are more likely to be completed earlier

(approximately 5 times more likely) than cases filed during the third quarter of 1990

(the referent category.) Conversely, cases involving the WV vaccine are less likely to

be settled earlier that cases involving the DTP vaccine (approximately a quarter as

likely.) Both of these variables are statistically significant.


Including dismissed cases, all of the variables indicating when the case was filed are

significantly related to the time it take to close a case. This is also true for type of

vaccine (IVP compared to DPT) and pro se status. These results are essentially

consistent with the univanate results presented in Table 111. However, the

multivariate model indicates that death is significantly related to the time to close a

case. When the dismissed cases are excluded, death remains significant. When

dismissed cases are excluded, only cases filed before July, 1990 take significantly

shorter lengths of time to complete. Those cases associated with the IVP vaccine take

significantly longer. The effect of pro se cases also becomes non-significant. Again an

indication that pro se cases are probably more likely to be dismissed.





                                           c-5
                                      Table II

                         Median Time Between Internals




                                 To Date
                                  Internal OGC          DOJ            Special Master
From Date
                                 Report                Report        Report

                                           12            13                   15
        Date Filed           I
                                                          3                   11
   Internal OGC Report
                                                                            no data
       DOJ Report
                                                              (Dismissed cases included.)




                             To Date
                              Internal OGC              DOJ            Special Master
                             Report                    Report        Report
 From Date
                                       13                13                    15
        Date Filed
                                                          3                    11
   Internal OGC Report
                                                                            no data
       DOJ Report
                                                              (Dismissed cases excluded.)




                                                C-6

                         Table III


       Median Number of Months to Completion
                                           Dismissed Cases

                                      Included     Excluded


All Cases                                  15             15


Period Filed
                  Before 7/90              13            13

                    7/90-9/90          no data       no data

                  10/90-12/90          no data       no data

                        1991           no data       no data


Date Vaccine Administered
               Prior to 10/88               15            15

                  After 10/88               14            14


Patient Died
                         Yes                14            14

                          No                15            1.5


Case is pro se
                         Yes                13            18

                          No                15            15


Vaccination Type
                         DPT                14            15

                         IPV                20            20

                      Measles               16            16

                 Other, Unkn.               37       no data





                               C-7

                                                              Figure A

                                       Distribution                      of        Cases              by          Status

                                                      AS      of       Aug.            26,          1991

                              Interval            :    Fi I ing           Date           to         SM Report                           Date
       1,0,
                I

       o.

c                                                                             ..       ....................................... .......... ............. ......
00
.—

$
 L
0                                                                                       :::;:\\....................................................."""""..".'""".""""""
:0
k
        0,          l_..................................... ......+.....EW.Y””’””””1    \!::t
                                                                                         ..
.................................""""""."""."."".""""""..""..



                                  Categories                   Of       Time           Since                Filing                    in        Months
 off    ,c.a   d      Eva lmt    10.   ana   InsoMx   low.                                   �       Q,.             ~        closed             ~        D,sm,   s’=ed

 OIG           FeO      21,    1992




                                                                         C-8

                                        Table IV

                            Proportional Hazards Regression

                       Date Filed to Special Master Report Date

                                Dismissed Cases Included

                                                           95% conf. int.
                                          Relative                              P
                Variable                    Risk        Lower       Upper     Value

Prospective Case                                1.10      0.60        1.99      0.641
Case Filed before 7/90
                         5.17      4.03        6.62    <0.001
Case Filed 4th Qrt.,FY1990
                     4.79      3.70        6.~o    <0.001
Case Filed During FY1991
                       14.40     6.79       30.53    <0.001
Patient Died
                                    1.31     1.06        1.63      0.013
IPV Vaccine Given
                              0.25      0.17        0.35    <0.001
MMP Vaccine Given
                              0.76      0.58        0.99      0.045
Other Vaccine Given
                            0.98      0.59        1.64      0.949
PRO SE Case
                                     3.05     2.44        3.81    <0.001
Claim Filed after 1/31/91
                       0.13     0.02        1.05      0.055
                               Dismissed Cases Excluded

                                                             95% conf. int.
                                           Relative                             P
                Variable                    Risk        Lower      Upper      Value
Prospective Case                                 1.55     1.04        2.33      0.031
Case Filed before 7/90                           5.26     4.02        6.87     <0.001
Case Filed 4th Qrt.,FY1990                       1.26     0.80        1.98      0.319
Case Filed During FY1991                         2.45     0.57       10.47      0 ---
                                                                                   77s

Patient Died                                     1.43     1.13        1.81      0.003
PV Vaccine Given                                 0.47     0.?9        0.75      0.002
MMP Vaccine Given                                0.75     0.52        1.0s      o.l~j

Other Vaccine Given                              1.47     0.46        4.71      0.514
PRO SE Case                                      1.47     0.95        2.2s      0.0s4
Claim Filed after 1/31/91                        0.89     0.08        9.93      (39’24




                                          c-9
                                                                   Cited
                                                           ~terature


                                                                      1958.     Nonparametric
                1.�         Kaplan,        E.L.  and Meier,        P.                           Journal     Of
                                      estimation     from incomplete        observations.
                                      the American      Statistical      Assoclatlon.      53:457-481.

                            SAS Institute          Inc.    1988.  SAS Technical      RePoti:     P-179Cary ,
                 2.                                                            Release     6.03.
                                  Additional          SAS/STAT Procedures,
                                                                        .
                                  NC.

                 3.         cox,      D.R.    1972. Regression models and life tables                     (with
                                      discussion)�. Journal of the Roval  Statistical
                                      Societv   B. 34:187-220.

                  4.         SAS Institute Inc.  1991. SAS Technical Report      P-217,
                                                                             Version   6-
                                  SAS/STAT Software: The  P~EG  Procedure,
                                  cary,  NC-
                                                                      1980. ~
                      5.	    Kalbfleisch, J.D. and P;entice, R.L.
                                  Statistical Analvsls of Failure Time Data, New York,
                                  John Wiley & Sons, Inc.      .




             ... .

-..

                                                                     C-lo
 ---
       .-

    APPENDIX           D

COMMENTS   TO THE D-   REPORT




               D-1
F~crr                            for Health
        Assistant    Secrets.~

Sub]ec:
     Office of Inspector General                     Draft Report “The Naticnal
                                                  (OIG)
                                                         +. Review’”
     Vaccine Inju~  Compensation               Program:
TO
        Acting   Inspector   General,     OS

                                                                 on the subject
        Attached are the Public Health Senice        comments
        OIG repOrl.    we agree that the changes     r~co=ended      in t~:s.
        report  would  improve  the management   and   ~nczease    the efz~c~encY
                                                              Our� comments
        of the Vaccine Inju~ry Compensation Progr-.
        describe the ac=ions unde=~ay or planned to          address these
                                                        of technical ccmments
        changes .  “In addition,  we offer  a  series
        for your consideration.
                               /?



        Attachment




                                   l;:.              :1 .-.

                                    .                      . .
                                          -----              .
                                          .-              -----”:
                                              --   ‘-. s-..
                                          . . . . . ----   -.
 PUBLIC HEALTH SERVZCE (p~s ) COMMENTS ON THE OFFICE OF INSPECTOR
     GE3JEWUJ (OIGI DRAFT REPORT “THE NATIONW   VACCINE INXJRY
        COMPENSATION PROG-V:    A REVIEW,”  OEI-02-91-01460


OIG   Recommendation:


The PHS, Department         of Justice,   and   Claims   Court should:


       o� inventory the backlog (of petitions for compensation?
          submitted to the U.S. Court of Claims) to set priorities
          and better estimate future resource needs,

       0   further   streamline    the process,

       0   use   latest    scientific   evidence,

       0	 improve    contacts    with petitioners        and their attorneYs/
          and

       0   emphasize      use of amuities.

PHS Comments

While this recommendation is not directed specifically to PfiS, we
nevertheless concur that the recommended changes would improve
the management and increase the efficiency of the Vaccine Injury
Compensation Program (VICP).            The PHS components involved in the
VICP will continue to work with the Department of Justice and the
Claims Court to resolve the retrospective cases as quickly as the
availability of resources will petit andt concurren~~Yt                aPP~Y
improved   skills   and techniques       to xnaintaining the efficient
processing    of prospective     cases.

The program has been working  with a PHS Task Force on the VICP to
change the Vaccine Injury Table and the Qualifications and Aids
to Inte.rpretation to reflect current science.    The Task Force
finalized its recommendations  for changes to the Table and Mds
after intensive review by several scientific and policy groups”
The Office of Management and Budget recently approved these
proposed revisions both as part of a Notice    of Proposed
Rulemaking and a legislative package.

We agree with the objective of the recommendation to improve
contact with petitioners and their attorneys.      However, PHS is
limited by its role in the process.      The Claims Court has the
sole   authority to assign cases  for adjudication.    As such, they
should provide information to petitioners and their attorneys on
the status of unassigned cases.      PHS’ Division of Vaccine Injury
Compensation    (DVIC) regularly receives calls from cla~~ts      or
their attorneys on active cases and responds      = info=at~on
allows   .
                                                                                        2



The DVIC has been workinq with the Advisory Committee                on
Childhood Vaccines’ (XCV) newly  formed Subcommittee                on Process.

This  Subcommittee   is responsible     for seeking, receiving,  and
analyzing systematic    feedback    from interested  parents’ groups,
petitioners’ attorneys, and others on impl~entation          of the VICE’.
The ACCV has also offered petitioners and their attorneys the
opportunity to communicate concerns and suggestions
                                                  .         for improving
the process.

In addition to our comments on the recommendation, we suggest
that two subjects be clarified in the final report.              First, on
pages 10 and C-4, the report indicates that the Iongest period of
time for processing cases is the time from the date a claim is
filed to the date of the Office of the General Caunsel/PHS
report.      This incorrectly suggests that PHS is delaying the
processing of claims.          It would be more appropriate to track        from
the time the clati is filed to the date the Special Master
assigns the case and schedules the respondent report date.                OIG
may not be able to determine this inte~al             since this information
is not in the program’s database.            Therefore, we suggest that the
report  simply     indicate    that the program   does not begin    to process
cases  until    they axe scheduled      by the Court,   and that  is the
reason   for the delay,
                    .
The second clarification recommended would be to delete the
sentence on page 19 regarding the need to better publicize the
HHS Hotline telephone number.           A lawsuit was filed, and
subsequently withdrawn, charging that there was insufficient
publicity for this special number.            Even though this suit was
withdrawn, the program has recently distributed a new poster
along with a set of questions and answers regarding the progr-.
These materials, which were developed to further inform vaccine
administrators        throughout the country about programmatic issues,
include the 800-Hotline number.

Technical    Comments

Paae 2, first DaZaa~aDh,       fi~st sentence.   The words “Section
2110” should be replaced       with “Subtitle  2 of Title XXI.*

Paqe 2, first ~araqraph,       second     sentence.   The   following         changes
should be made:

      o     ‘Section   2110” should     be replace by “Subtitle         2,”

      Q	    the phxase “by the 1988 and 1989 amendments,-               should be
            inserted after “1987,” and
                                                               and ‘“
     o	   the      ‘Health
                words       Inf~rmation,  Health   PxcmotLon~
                                     “Vaccine Inju.~ Compensation
        shculd be insezzed before
        Amen&ents   of 1951.”
                             first sentence.    The phzase ‘(in
Paae 2, second paraffranh ,                  should be inse.+-ed after
Subtitle 1 of Title XXI of the PHS Act)”
“Act. “                                      .
                             second sentence.    The phrase “(Section
Paae 2t second n.araaraDhl                   after “(NVAC).”
2105 of the PHS Act)” should be inserted

                             last sentence.    This sentence should be

Paae 2, second paraaraDh,
deleted from the final report.
                            first sentence.    The plxcase.“(Section
                                                                “
Paae 2r third ~aracraDh,
 2119 of the PHS Act)’” should   be inse~ed   after  “Vacc~nes.


Paae 3, Table       I.   Cells   in the table should be revised as
follows:
                                                         “ cells
      o� for both the “retrospective”  and “prospect~ve.
                                    the words “of rehab~litative,
         under ‘basis of awards,”
         and related” .should be insetied between “medical
         expense6~ “
                                              “basis of awards” should      be
      o� the “prospective”         cell under
         revised by adding         “up to $250,000” after “pain and
         suffering, “ and
                                                 should   be added at the
      o     the word “and loss of earnings”
            end of footnote ‘***.Ic
                                   first sentence.    The word “enti=e””
 Paqe 5, second Daracranh,                     ,*...Pxogr=m if funding is
 should be inserted before         the phrase
 insufficient. “
                                              The end of this
 Paae 5r seccnd naraaranh, last sentence.     “ .. and
 sentence should be rewritten as follows:               “the petitioner
 could then seek recourse only in the tort system.
                            last sentence.   A comma should     be
 Paae 5, third Daxaaxaoh
 inserted   after the word “millicn.”
                                    ‘entencelA The
 Paae 5f fcuz=~ Darac=a?ht f~~s=fellows:        ~cs=anbeginning   cf this
                                                          university
  senter.ce should be revxsed as
  professor recentlY completed. ...”
                                           paae,   first     sentence.
  Paqe 9, second naracranh from bottom of
                                       should    be inserted       after
  The words “and petitioner’s counsel­
  “from DOJ and PHS.”
                                                                         4



                                                         8econd  sentence.
Paae 10, second     Daraaranh    from bottom  of Daae,   “Once scheduled
This  sentence   should    be rewritten as follows:
for review, the medim         tine for both retrospective and       Is
prospective    cases    to reach   a special master  decision   is
months. “
                                                 paae, third sentence.
Paue 10, second ~araaraph from bottom of
The words “date the case is scheduled by..the      M Court” should be
inserted in place of “PHS OGC report date.
                                                  Insert “PHS” in p~aCe of
Paae 14, last paraqrauh, last sentence.
 “VICP.”
                                                    The sentence begimin~
Paae 15, second paraaraph , last sentence.
 “Representatives     from HHS, DOJ and the Clads       Cou~. ..” should be
deleted since this is an inaccurate stat-ent.
                                             The wurds “the PHS
Paae 17, first Dazaarauh, first sentence.
Task Force has” should be replaced with “KHS and the Adv~sorY
Commission have.”
                  .
                                              The word
Paffe 17, first paraaranh , second sentence.            I’should         be
“encephalopathy” and the comma after “seizure disorder
deleted.
                   .

Paae 17, last naraaranh.  In the three places        it is shown,    “VICF”
should be replaced with “PHS.”
                                               In the two places         it
 Paae C-1, third ~araaranh, second sentence.
 is shown, “OGC”” should be replaced with “PHS.”
                                             “OGC “ should be
 Paqe C-4, third paraarauh , last sentence.
 replaced with “PHS.”
TO:              Br’Yan B. Mitchell

                 Prhcipal      Depury        Inspectcr                G-er~~


FROM :           Assistant Secretar”
                 for Planning and Evaluation

SUBJECT
      :          OIG Draft Repcrr:   l~The National                                Vaccine Injury
                 Compensation Program:   A Pragram                                 Review,to 0E1-~2-~i-
                 01460 -- COMMEiW3

Thank you for submitting far my review and comment the draft
report on ‘sThe National Vaccine Injur’~ Compensation Prcgr=n:
A Program Review.”           As you know, we and &he Public Health Se.rvic=
(PHS) have     been ver~       interested        in examining       the Vaccine     Inlur~
Compensation      Program      (VICP) and looking            for improvements       in i~=
operation.       Your report        was informative          on t!!ese  issues    and will
help    as we proceed      to propose        changes.        We suggest    that   upon
completion     of this     report       that   it be made available          to t-he
Advisory     Commission      on Childhood Vaccines as its charge is to
advise Secretary        Sullivan        on issues     facing     the VIcP.

We do, howev=r,     have a technical    comment.   On page 16, tYAe
sentence discussing      the Depar”~ent   or Justice (DOJ) proposal                                          ta
provide   for s~-onger corroboration of evidence should be
mcdified ta ~C~S and DO~- suPPort st=cnger corroboration of
evidence requirements.”

If    You have     any   questions,          please            call        Elise     Smith on   690-6870.




                                      Martin             H. Gerry


cc:� Michael        Mangano                                                         :G           ---.-
                                                                                    91UG        —---
                                                                                    IXG-AS      —_       /
                                                                                    OIG-EX      ~
                                                                                    DIWI
                                                                                    A.IGMP      ‘~
                                                                                    OGC~IG               /




                                      1:::    -..   ““   ,j	     .-..
                                                                 ... ,-.
           o�          Bath page i of t!!e Executive suama-~                 and pa~e 9 of Me
                       report cantain a secticn headed by ‘Cases are delayed due
                       a fxcnt-e.nd backlog resuiting fscn sc5.edulir.cccns--=+nts
                       ar.cl lac!.c of resou~ces.ft       The primary cause c; t!!e &~~lcq

                       the laqe      Uiianticipated influx cf cases filed azaund tie

                       stati~tory deadline.          While
 ad.mittedlv, adzi.nistzati-;e

                       rescurces did not rnacc~. well with              khls    in~lu:c,
                                                                                             these
                       =Sy~~=S       Fe= S2 tier= r.ct the prinar-y iss”de.                ~ren
                       acldlt~cnal    resc~~ces      c~ t-his ~~.e were availz=le               ar.di: all
                       cases     had keen processed             --
                                                          immediatel’~,       the

                                                                                     r~sccsces       to pa.;

                       t!!i.s  level  of claims is nei~her authcri=ed lx law K2cr                           ­
                       aFprc~riated.        This    t!!en, is the t--~e liaiti~.c sten.
                                                                                          .




v                                                                                                          se?
h
:G-AE
“G.=
GaI     —-

G~
C/’IG
: SEC   =

        ——

— .-—      .,. , ,_

J?ecmmer.datiens�




o�    Disc”sssion      akcut reascns why SFecial Masters          overtxrn   ‘~!e
      recommendations  of t!!e governments   medical and legal  SC2S:
      c=uld be st~er.@aened.    In cnly cne inssance is an incerziex
      with a Special  Master cited. To u~derstand as clearl-y as
      Fcssible why decisi.cns are overturned,   CIG shccld  intsr-~iew
      all Scecial Masters and attempt to quanti.2;/t!!e reascrAs ZGZ
      disagreement.  Understanding the reascns why gavernnenc
      ex~erz sta?f is successful  in cnly fif~y Fercent cf Lie
      cases may sugqest additional refcms.

0     Cn   Fage     18, scme  of the recarmendaticns     a~~ear     to be
      resolving       ncn-e:<istenc prablens        inccm~atible Win-:
                                               or seen
      each  ct!!er.   Fcr exazple, recac.aendaticns� include acticn Es
      stxeaaline    Lie pracess.                       “m:-q idea is t=
                                    The first st=ez?all..-..
      assu=e more cc=plete     filing of Lhe Fetiticns    at t!!e fycnt
      end in order to avoid t!!e backlcq.   Hcwever,    Qhe cnly
      backlcg  which has been er~erienced in &he prz~san is fcr the
      pre -198a Clakls, not fcr the pest-1~~~   clai=s.    All F=e-19as
      Claizs have al:ead;~ keen filed and it is e.~ected that cc
      add i=icnal pre-198a clai~s will Ee accepted.           Ancther
      streamlining reca~endaticn         is ta “use past c?anacjes
      decisions    as a basis for fut~re cries.” This appears ta be
      incc=patible    wit!! the reco~endaticn      to “use latest
      scientific    information”     ta c!etemine  c==pensation.     The OIG
      reFcr=   recc=~ends   re*/isicns   to t!!e vaccine  inj~-y table as
     -.




..
                   RECOMMENDATIONS


The PHS, DOJ and Claims Court should:

Inventov the Backkhg.to Set Priorities and Better IMikate Future Rerource Neeak

The Claims Court, in consultation with PHS and DOJ, should evaluate the existing

workload to determine which cases it should handle first, what mix of resources will be

needed to handle them, and how best to handle more complicated cases. In

particular, Claims Court staff attorneys could be added to identify priority cases and

those likely to be dismissed. A medical review contract may be an option if more

medical review expertise is required.


Our analysis of case characteristics and handling times (See Appendix C) indicates

that some aspect of cases, such as whether the patient died, the type of vaccine used,

when the case was filed, and whether itwas handled pro se, affect the length of time

to process the case. Perhaps these and other factors can be used to schedule the

cases more efficiently or to help determine the expertise required.


Further Streamline the I+mx..w

To help make the process more expeditious and non-adversarial,       the agencies should
review the following ideas:

       *
              Assure more complete filing of petitions, particularly medical evidence
              by giving more guidance to petitioners and their attorneys.
       *      Due to the scarcity of expert witnesses, have one objective expert
              witness per case appointed by the special master, as opposed to one for
              the petitioner and one for the government.
       *      Use past damages decisions as a basis for future ones.
       *      Process damages determinations more quickly.

Use Latixt Scientific Information

The Department of Health and Human Sewices should support its Task Force’s
proposed legislation to revise the Vaccine Injury Table to reflect the latest scientific
information available, such as the IOM study. The Aids to Interpretation should
include sufficient detail so the table can be interpreted more consistently.

Improve Contact with Petitimem and their Attorneys

The program should designate a contact person in the Claims Court to respond to the
questions and concerns of petitioners and their attorneys, especially those questions
about cases not yet assigned.



                                             18



                                                                                           —.
Emphasize Use of Annuities

The special
          mastersshouldcontinue
                              usingannuities
                                          as theprimarysettlement

                                                               option

ininjury

       cases.


COMMENTS

Comments on the draft report received from PHS; the Assistant Secretaxy for Policy
and Evaluation and the Assistant Secretary for Management and Budget (ASMB)
generally concur with the recommendations of this report. However, PHS pointed out
that its role in the process is a limited one. We agree. We have directed our
recommendations to the DOJ and the Claims Court as well as PHS. Suggestions for
changes in the wording, clarifications of the text and any technical changes have for
the most part been incorporated into the final report. The actual comments received
are in Appendix D.

The PHS stated that the report incorrectly suggests that PHS is delaying the
processing of claims because we did not track the date the claim is filed to the date
the special master assigns and schedules the case. We are aware that delays were
experienced from the time of the case filing to scheduling. However, those dates are
not included in the program’s database. We thus were unable to include it in our
analysis.

Lastly, ASMB stated that the true limiting step of the program is that the resources to
pay the level of claims submitted are neither authorized by law nor appropriated.     We
understand their point. We nevertheless believe that a more effective process can
shed light on the extent of the problem and the true extent of the resources needed.
In response to ASMB’S recommendation to develop a methodology to compensate
parties in an equitable manner, we note that this was not within the scope of the
inspection. The ASMB also observed that since all retrospective cases have been filed
at this time, the recommendation to assure more complete filing of petitions at the
front end, and to give more guidance to petitioners and their attorneys is not
necessary. However, many retrospective cases require additional information after the
initial filing. To clarify matters we have eliminated the phrase “at the front end” from
the recommendation.




                                           19

